        Audit of the State of Vermont
Administration of Disaster Assistance Funds
                                                                     OfJice oflrispcctor Geilerd
                                                                                   Ofice - AucIir Divisior?
                                                                     lillkliitu Field

                                                                     1-.S. Department of Homeland Security
                                                                     3003 Chamblee-Tucker Road
                                                                     Atlanta, Georg~a30341




                                     August 9,2005


MEMORANDUM FOR:              Kenneth L. Horak


FROM:


SUBJECT:                     Audit of the State of Vermont
                             Administration of Disaster Assistance Funds
                             Audit Report No. DA-2 7-05


Attached for your review and follow-up are five copies of the subject audit report that was prepared
by an independent accounting firm, Soza & Company under contract with the Office of Inspector
General. In summary, Soza & Company determined that the Vermont Emergency Management
Agency should improve certain program management procedures associated with the administration
of disaster assistance funds.

On July 5,2005 your office responded to the draft report. Based upon your response, the finding is
closed and requires no additional action. Should you have any questions, please contact David
Kimble or me at (770) 220-5242.

Attachments
                                                                                                             August 5,2005

                Department of Homeland Security
                Office of Znspector
                Washington, D.C. 20005

               In accordance with Contract No. GS-23F-98438, dated November 21,2001, and Order
               No. TPD-FIG-03-K-00016, May 19, 2003, Soza & Company, Ltd. conducted an audit
               of the State of Vermont's Emergency Management Agency to assess its compIiance
               with the Robert T. Stafford Disaster Relief and Emergency Assistance Act (Public Law
               106-390, as amended) and applicable Federal regulations. This audit was initiated by
               Soza & Company, Ltd. (SOZA). Soza was acquired by Perot Systems Government
               Services, Inc. (Perot Systems) in February 2003 in a 100-percent stock purchase, and
               continued to operate as a wholly owned subsidiary of Perot Systems until all SOZA
               contracts were novated to Perot Systems in November 2004 and Soza was dissolved at
               the end of that year.

               The audit objectives were to determine if Vermont's Emergency Management Agency
               (grantee) administered the grant programs in accordance with Federal regulations, and
               accounted for, reported, and used the Federal Emergency Management Agency's
               (FEMA) funds properly. We identified one program management finding related to
               compliance with Federal regulations. This report presents the results of our audit and
               includes recommendations to help improve the State of Vermont's administration of
               the FEMA's disaster assistance programs.

               Our audit was conducted in accordance with the applicable Government Auditing
               Standards, 1994 Revision, as amended. Although the audit report comments on costs
               claimed by the State of Vermont, we did not perform a financial statement audit, the
               purpose of which would be to render an opinion on the financial statements. The scope
               of this audit consisted of program and financial activities for ten (10) Presidential
               disaster declarations and one (1) emergency declaration, all of which occurred between
               August 16, 1995, and July 12, 2002, and were financially open at September 30,2002.
               The audit included the Public Assistance (PA), Hazard Mitigation (HM) and Individual
               and Family Grant (IFG)programs for each disaster, as applicable.

                We appreciate the cooperation and assistance received from both the grantee and
                FEMA Region I personnel. Where applicable, we have considered the views of the
                grantee and FEMA Region I officials when writing this report. FEMA regional office
                and grantee officials generally concurred with our finding and recommendations, and
                are taking corrective actions to resolve the finding discussed in the report.

                If you have any questions, or if we can be of any further assistance, please contact
                Teny H. Byce at (703) 289-6836.




                Perot Systems
                Fairfax, Virginia



       Perot Systems Corporat~on* 8270 Willow Oaks Corporate Drbe   Fa~rfax.V~rginia22031   0   tel 703 289.8MM = fax 703 289.8099


- --                                                                                                                     -     -     -  - -
                                                                                                                                      - -  -
FEMA                                             Emergeucy Management Agency
                                                             State of Vermont




Table of Contents                                                       Page

       Executive Summary

       Introduction

       Objectives, Scope and Methodology

       Findings and Recommendations

       A.    Program Management

             1.       Grant Award Activity and Reporting

       Attachments

       A.    Schedules of Sources and Applications of Funds

       B.    Management Comments
                                                            Emergency Management Agency
                                                                        State of Vermont
    I.     EXECUTIVE SUMMARY

Soza & Company, Ltd. completed an audit of the administration of disaster assistance
grant programs by the Vermont Emergency Management Agency (grantee). The
objectives of this audit were to determine if the grantee administered the Federal
Emergency Management Agency (FEMA) Disaster Assistance Grant Programs in
accordance with the Robert T. Stafford Act and appropriate Federal regulations; properly
accounted for and expended the FEMA disaster assistance h d s ; and operated and
functioned appropriately to filfill its administrative, fiscal, and program responsibilities.
This report focuses on the systems and procedures within the grantee for assuring that
grant h d s were managed, controlled, and expended in accordance with the Robert T.
Stafford Disaster Relief and Emergency Assistance Act (as amended) and the
requirements set forth in Chapter 44 of the Code of Federal Regulations, Emergency
Management and Assistance, (44 CFR). The Federal share of the funds obligated and
expended for each of the disasters included in the audit scope are presented in
Attachment A of this report.

Our audit period included ten (10) major disasters declared by the President of the United
States and one (1) emergency declaration, all of which occurred between August 16,
1995, and July 12, 2002, and were financially open at September 30,2002. The following
table identifies the programs that had been implemented within each of the
disastedemergency management declarations.

f    Disaster          Declaration                     Type of                      Program
     Number               Date                         ~kister                    lmple&ented
      1063      *     August 16,1995           Excessive Rain and Flooding        PA, KEG, and HM
      1101           February 13,1996             Ice Jams and Flooding             PA and HM
      1124              June 27,1996            Extreme Rain and Flooding           PA and HM
      1184      *       July IS, 1997           Extreme Rain and Flooding         PA, LFG, and HM
      1201      *     January 15, 1998   Severe Ice Storms, Rain and High Winds   PA, IFG, and KM
      1228      *I      June30,1998            Severe Storms and Flooding         PA, WCr, and HM
      1307      *1   November 10, 1999   Severe StormDamage and Power Outages       PA and HM
      1336      *       July 27,2000           Severe Storms and Flooding           PA and HM
      1358            January 28,2001          Severe Storms and Flooding           PA and HM
      1428      *       July 12,2002             Flood and Storm Damage             PA and IFG
     EM-3 167          April 10, 2001               Severe Snowstorm                    PA

In accordance with our agreement with the Office of Inspector General (OIG), our audit
focused on the grantee's program and financial management procedures and practices.
Due to the large number of disasters, we selected seven (7) disasters for testing, as
identified by an asterisk (*) in the table above. These seven disasters represented 81% of
the Federal FEMA disaster dollars provided to the grantee for the Public Assistance (PA),
Hazard Mitigation (HM), and Individual Family Grant (FG) programs. During the audit,
we emphasized the need to identify the causes of each reportable condition. In addition,
we have also made recommendations that, if implemented properly, would improve the
grantee's management, eliminate or reduce weaknesses in internal controls, and correct
noncompliance situations. The finding reported below is discussed in the body of the
report.


                                     Soza & Company, Ltd.                                       2
FEMA                                                    Emergency Management Agency
                                                                    State of Vermont

Our testing identified the following instance of noncompliance:

Program Management

      The grantee did not complete the grant award activity within 180 days of the disaster
      declaration, did not submit the final reports to FEMA Region I within 90 days of the
      completion of the grant award activity, and did not receive the needed training to
      accomplish these reporting requirements. Delayed completion of grant award activity
      and submission of final reports and vouchers impedes the grantee's and FEMA
      Region 1's ability to effectively monitor and closeout the grants.

II.      INTRODUCTION

State agencies are the first to respond once a disaster has occurred. Depending on the size
and severity of the disaster, the State's Governor may request the President of the United
States to declare a major disaster, which would make relief grants available through
FEMA. After the President declares the disaster, FEMA provides financial assistance,
through a designated agency within the affected State, by implementing one or more
grant programs.

Located in the Department of Public Safety, Vermont's Emergency Management Agency
(grantee) is the state's lead agency for the coordination of emergency management
programs and response measures. Its mission is fourfold: to provide the citizens of the
State of Vermont with the knowledge and expertise necessary before a disaster strikes; to
respond during a disaster; to assist with recovery efforts after a disaster; and to mitigate
by taking the necessary steps to prevent or lessen the effects of a disaster before and after
one occurs. The grantee is also responsible for allocating and disbursing funds received
under FEMA's grant programs.

The Robert T. Stafford Relief and Emergency Assistance Act, as amended, governs
disasters declared by the President of the United States. Following a major disaster
declaration, the Act authorizes FEMA to provide various forms of disaster relief to the
State as the grantee; and to State agencies, local governments, eligible private nonprofit
organizations, Indian Tribes, and Alaska Native Villages, as subgrantees. On October 30,
2000, the President signed the Stafford Act amendments into law (Public Law 106-390).
These amendments are effective only for disasters declared after October 2000. In
addition, Title 44 of the Code of Federal Regulations, Emergency Management and
Assistance (44 CFR), provides further guidance as to the requirements for the
implementation, administration, and management of disaster relief grants.

Our audit concentrated on the grantee's use, management and reporting of m M A
program funds received under the Public Assistance (PA), IndividuaI and Family Grant
(IFG), and Hazard Mitigation (HM) programs. Three separate state agencies with
permanent employees manage these programs on a daily basis. Financial controls are



                                 Soza & Company, Ltd.                                       3
FEMA                                                                           Emergency Management Agency
                                                                                           State of Vermont
provided at the state level through the Vermont Treasurer's Office, Office of Financial
Management, and the Department of Public Safetym

Public Assistance Grants:

 Public Assistance (PA) grants are awarded for the repair and replacement of facilities,
 removal of debris, and the implementation of emergency protective measures necessary
 after disasters occur. In order for a subgrantee to receive funds through the PA program, a
designated representative of the subgrantee must complete FEMA Form 90-49, Request
for Public Assistance. FEMA and grantee personnel will review the Request for Public
Assistance and determine if the subgrantee is eligible to receive funds under the program.
If the subgrantee is eligible, FEMA will assign a Public Assistance Coordinator (PAC) to
the subgrantee, who serves as the subgrantee's customer service representative and will
be responsible for managing the subgrantee's projects. In addition, the grantee may
assign a State Applicant Liaison (liaison) to the subgrantee, who is responsible for
ensuring that the subgrantee's needs are met. Once the PAC and liaison have been
assigned, the three parties schedule a "Kickoff Meeting," where the subgrantee's specific
eligibility and documentation needs are discussed. After the "Kickoff Meeting," the PAC
verifies the initial eligibility of the subgrantee and prepares the Project W o h h e e t (PW.
FEMA will then review the PW, and if approved, they will obligate the necessary funds.
The total costs of the projects are shared by FEMA and non-Federal sources, with FEMA
covering at least 75 percent of the eligible costs. The remaining funds are paid by non-
Federal sources, to include the grantee andlor local governments and agencies.

44 CFR 206.203 provides that PA projects be classified as either "small" or "large." The
classification is based on a project threshold, which is adjusted annually to incorporate
the changes in the Consumer Price Index for All Urban Consumers, as published by the
U.S. Department of Labor. For example, the threshold as of October 2001 was $52,000;
therefore, projects costing less than $52,000 were classified as "small," whereas projects
costing $52,000 or more were considered "large" projects.

In order to prevent unnecessary delays, the Federal share of the costs for small projects
are disbursed soon after FEMA's approval. However, for large projects, progress
payments are made to the subgrantees based on actual costs, as documented. After a large
project has been completed, the grantee evaluates and reports the final cost to FEMA,
who will then adjust the amount of the large project to reflect the actual costs incurred.

Individual and Family Grants:

The Individual and Family Grant (IFG) program provides financial assistance to
individuals and families (subgrantees) who have sustained damage or developed serious
needs because of a natural or man-made disaster. Subgrantees wishing to obtain
assistance under this program may be required to apply to the Small Business
Administration (SBA) first for a disaster loan, If the SBA determines that a subgrantee is
not eligible for a SBA loan, SBA will refer the subgrantee to the IFG program for

' Prior to the use of Project Worksheets, Disaster Survey Reports were used.

                                               Soza & Company, Ltd.
                                                                                             Emergency Management Agency
                                                                                                         State of Vermont
              consideration. In order to obtain assistance through this grant, the Governor of the State
              must specifically express the intent to implement this program. This expressed intent
              must include an estimate of the size and cost of the program. The grantee is responsible
              for monitoring the IFG program and ensuring that the program objectives and
              requirements are met. The total costs of the program are shared by FEMA and the
              grantee, with FEMA covering 75 percent of the allowable costs. The remaining funds are
              paid by non-Federal sources fiom h d s made available by the grantee.

              Hazard Mitigation Grants:

              The Hazard Mitigation (HM) Grant program is awarded to states to help reduce the
              potential damages from future disasters. The grantee must submit a letter of intent to
              participate in the program, and subgrantees must submit a Hazard Mitigation grant
              proposal to the grantee. Even though the grantee is responsible for setting the priorities
              for the selection of specific projects, FEMA provides the final approval. FEMA also
              awards grants to local governments, eligible private non-profit organizations, Indian
              Tribes, and Alaska Native Villages. The amount of assistance available under this
              program must not exceed 20 percent2 of the total assistance provided under the other
              assistance programs. The totaI costs of the program are shared by FEMA and the grantee,
              with FEMA covering 75 percent of the program costs. The remaining funds are paid by
              non-Federal sources.

              Administrative Funds:

              Under the PA and KM programs, FEMA may grant three types of administrative funds to
              the grantee for overseeing the program.

                        Administrative Cost Allowance: Provided to cover any extraordinary costs that
                        are directly associated with administering the program. This allowance amount is
                        determined by using a statutorily mandated sliding scale percentage that is applied
                        to the total amount of Federal assistance awarded under each program for each
                        disaster. This allowance is intended only for extraordinary costs. For example,
                        costs incurred for preparing Project Worksheets or final inspection reports,
                        processing project applications, conducting final audits and related field
                        inspections, overtime, per diem, and travel expenses are considered administrative
                        costs. However, the administrative cost allowance does not include provisions for
                        regular, &&time employees' straight time.

                   2. State Management Costs: Provided to cover only ordinary or regular expenses
                      directly associated with the program.

                   3. Indirect Costs: Provided for activities indirectly associated with the program
                      administration.



              'Recent amendments to the Stafford Act, Section 322, increased this percentage from 15 to 20 percent.

                                                            Soza & Company, Ltd.                                               5

-
-   --   --   -
              --                   --
                                                                -     -   --                               -          -    -   --  -   --   --
                                                                                                                                             -   -   -
                                                                                                                      --
                                                      Emergency Management Agency
                                                                  State of Vermont
For the IFG program, up to five percent of the Federal share of total program costs may
be allocated for administrative costs.



Objectives:

To determine if the State of Vermont:

         1. Administered the FEMA Disaster Assistance Grant Programs in accordance
            with the Stafford Act and appropriate Federal regulations;

         2. Properly accounted for and expended FEMA disaster assistance funds; and

         3. Submitted accurate financial expenditure reports for the Disaster Assistance
            Grant Programs.

Scope:

The scope of our audit included ten (10) major disasters and one (1) emergency
declaration, under which FEMA awarded 25 grants. These disasters were declared
between August 16, 1995, and July 12,2002. In performing our fieldwork, we randomly
selected seven disasters involving 18 different grants for testing.

The cut-off date for the audit was September 30, 2002. However, we also reviewed
current activities related to the conditions found during our audit to determine whether
the grantee had taken appropriate corrective actions.

Methodology:

We conducted our audit in accordance with the Consolidated Audit Guide for Grantee
Audits of F E W Disaster Programs prepared by the OIG.

Our audit work included interviewing key FEMA officials and reviewing documents at
the FEMA Region I office in Boston, Massachusetts, to gain an understanding of the
internal controls in place as well as to determine current issues and concerns regarding
the grantee's administration and management of the disaster assistance programs.

The majority of the audit fieldwork was conducted at the grantee's office in Waterbury,
Vermont, and at the State Agencies of Commerce and Community Development, and
Transportation, both Located in Montpelier, Vermont. We interviewed key grantee
officials and reviewed documents to gain an understanding of the grantee's
organizational structure, internal control system, and policies and procedures that were
followed. We also reviewed samples of program files and supporting documentation to
determine if prescribed policies and procedures were complied with, expenditures were
FEMA                                                   Emergency Management Agency
                                                                   State of Vermont
adequately supported, and financial reports were prepared accurately and on a timely
basis.

During the fieldwork phase of the audit, we adjusted our scope, depending on the
program being tested, in order to obtain reasonable coverage over each grant program.
For each disaster selected, we reviewed the appropriate documentation to determine
whether the disaster assistance programs had been implemented in accordance with the
applicable regulations. Furthermore, we reviewed the grantee's current systems and
procedures to identify any internal control weaknesses or noncompliance situations.
Where applicable, we have considered the views of FEMA Region I and grantee officials
when writing this report.

We also reviewed prior audits performed within the time fi-ame of the disasters included
in our audit scope, which included Office of Management and Budget (OMB) Circulars
A-128 and A-133 audits performed by Vermont's Auditor of Accounts. Our audit scope
did not include interviews with or visits to subgrantees or project sites; therefore, we did
not evaluate the technical procedures used in estimating and processing the repairs caused
by disaster-related damage.

The audit was conducted in accordance with Government Auditing Standards as
prescribed by the Comptroller General of the United States. We were not engaged to and
did not perform a financial statement audit, the objective of which would be to express an
opinion on specified elements, accounts, or items. Accordingly, we do not express an
opinion on the costs claimed for the disasters under the scope of the audit. If we had
performed additional procedures or conducted an audit of the financial statements in
accordance with generally accepted auditing standards, other matters might have come to
our attention that would have been reported. This report relates only to the accounts and
items specified and does not extend to any financial statements of Vermont's Emergency
Management Agency or the State of Vermont.




                                Soza & Company, Ltd.                                       7
FEMA                                                  Emergency Management Agency
                                                                  State of Vermont

IV.      FINDINGS AM) RECOMMENDATIONS

The audit results are summarized in one major section: Program Management. This
section contains the findings and related conc~usionsand recommendations.

  A. Program Management

      1. Untimely Completion of IFG Grant Award Activity and Final Reports

        The grantee was responsible for managing the Individual and Family Grant (IFG)
        program, which includes timely completion of grant award activity and
        submission of fmal reports. However, the grantee had not always completed the
        grant award activity or submitted the final reports and vouchers to the FEMA
        Region I Director within the required timefiames. In addition, the grantee did not
        request extensions, as required by Federal regulations, when the timefiames could
        not be met.

        44 CFR 206.13 l(j)(iii) required the grantee to complete all grant award activity,
        including eligibility determinations, disbursement, and disposition of State level
        appeals, within 180 days following the declaration date. Furthermore, the 44 CFR
        206.131Cj)(iv) required the grantee to complete all administrative activities and
        submit final reports and vouchers to the Regional Director within 90 days of the
        completion of all grant award activity.

        We noted the following untimely grant award and closeout activities for the IFG
        program:

             The grantee had taken between 184 and 602 days to complete the grant
             award activity for four of the five IFG programs included in our audit scope:
             [ Disaster [    Date of   ( Completion of the Grant Award   I   Elapsed Time   I



             The grantee had not established procedures to ensure the timely completion
             of grant award and closeout activity. The grantee stated that there were
             extenuating circumstances associated with the management of disaster 1201.
             According to the grantee, a special request for funeral expenses for one of
             the disaster victims was processed and delayed the completion of the grant
             award activity and closeout for Disaster No. 1201.




                                Soza & Company, Ltd.                                            8
                                                  Emergency Management Agency
                                                              State of Vermont
         The grantee had not submitted the required final reports to the FEMA
         Region I Director within 90 days of the completion of the grant award
         activity for four of the five disasters included in our audit scope.




   Grantee officials stated that responsibility for management of the disasters was
   transferred to another employee. The former program manager left the grantee in
   1998 and the current program manager took over responsibility for these disasters
   in the summer/fall of 1998. At the time of this transition, the current program
   manager was not fully trained because procedures had not been established to
   ensure the timely completion of grant award and closeout activity. Grantee
   officials stated that the program manager requested training and assistance from
   FEMA Region I for closeout reporting, However, according to grantee officials,
   the FEMA Region I Office did not provide the requested assistance, which led to
   further delays in the closeout of the grants.

Conclusiorrs and Recornmeit datioizs

Delayed completion of grant award activity and submission of £inal reports and
vouchers impedes the grantee's and FEMA Region 1's ability to effectively monitor
and close out the grants. Further, ineffective oversight and monitoring increases the
risk that the program may not have been implemented and managed as intended by
FEMA.

We recommend that the FEMA Regional Director, Region I require the grantee to
establish procedures to:

     I . Ensure that a11 grant award activity, including eligibility determinations,
         disbursements, and appeals, are completed within 180 days of the
         declaration date;

     2. Ensure that all administrative activities are completed and final reports and
        vouchers are submitted to the Regional Director within 90 days of the
        completion of all grant award activity; and

     3. Ensure that grantee personnel receive training that enables them to manage
         the FEMA grants in compliance with federal regulations.




                           Soza bgL Company, Ltd.                                   9
FEMA                                               Emergency Management Agency
                                                               State of Vermont
 Munagemrerzt's Response

 FEMA Region I and 'VEMA concur with this finding and the recommendations.
 VEMA has assured the regional office that Vermont will establish procedures to
 ensure that all grant award activity, including eligibility determinations,
 disbursements, appeals and final reports meet federal Stafford Act deadlines. State of
 Vermont Individual Assistance Program officials will also work with administrative
 personnel to ensure that all administrative activities and final reports are submitted
 within the established 90 day period foIlowing completion of all grant award activity.
 The state of Vermont has also indicated that it will work with FEMA Region I
 Individual Assistance staff to ensure timely training of State staff assigned to the
 Individual Assistance Program.

 Auditor's Additional Coinment

 The actions described by management are adequate to resolve and close the finding.




                             Soza & Company, Ltd,                                     10
                FEMA                                                       Emergency Management Agency
                                                                                       State of Vermont
                                                                                               Attachment A-1

                                         Schedule of Source and Application of Funds
                                           Vermont Emergency Management Agency
                                              Disaster Assistance Grant Program
                                                  As of September 30,2002


                                              Disaster Number 1063 through 1428




                                   Public Assistance       Individual & Family    Hazard Mitigation        Totals
Award Amounts
 Federal Share                              $26,916,031               $885,062             $4,660,010           $32,461,103
 Local MatchIState Share                       8,972,010               295,021               1,553,337           10,820,368
Total Award Amount                          $35,888,041             $1,180,083             $6,213,347           $43,281,471


Source of Funds
 Federal Share
 Local MatchlState Share                       8,443,722               219.105               1,359,089           10,021,916
Total Source of Funds                       $33,774,888               $876,420             $5,436,356           $40,087,664


Application of Funds
 Federa1Share                               $26,304,306               $741,868             $4,058,848           $31,105,022
 Local MatcNState Share                        8,407,195                198,582              1,356,748              9,962,525
Total Application of Funds                  $34,711,501               $940,450              $5,415,596          $41,067,547


Balance of Federal Funds on Hand
                 FEMA                                                              Emergency Management Agency
                                                                                               State of Vermont
                                                                                                        Attachment A-2


                                               Schedule of Source and Apptication of Funds
                                                Vermont Emergency Management Agency
                                                   Disaster Assistance Grant Program
                                                        As of September 30,2002


                           Disaster Number 1063 -Declaration Date: August 16,1995-Excessive Rain and Flooding




                                         Public Assistance         Individual i% Family   Hazard Mitigation         Totals
Award Amounts
 Federal Share                                      $3,227,008                 $177,562              $684,471             $4,089,041
 Local MatchIState Share                             1,075,669                   59,187               228.1 57             1,363,013
Total Award Amount                                  $4,302,677                 $236,749              $912,628             $5,452,054

Source of Funds
 Federal Share                                      $3,227,008                 $i77,562              $684,471             $4,089,041
 Local MatchlState Share                             1,075,669                   59,187               228,157              1,363,013
Total Source of Funds                               $4,302.677                 $236.749              $912,628             55,452,054

Application of Funds
 Federal Share                                      $3,227,008                 $177,562              $684,471             $4,089,041
 Local MatchfState Share                             1,028,390                   48,141               216,509              1,293,040
Total Application of Funds                          $4,255,398                 $225,703              $900,980             $5,382,081


Balance of Federal Funds on Hand                             $ 0                   $ 0                    $ 0                  $ 0




                                                     Soza & Company, Ltd.                                            12
              FEMA                                                                Emergency Management Agency
                                                                                              State of Vermont
                                                                                                          Attachment A-3


                                               Schedule of Source and Application of Funds
                                                 Vermont Emergency Management Agency
                                                    Disaster Assistance Grant Program
                                                        As of September 30,2002


                             Disaster Number 1184 -Declaration Date: July 15,1997   - Extreme Rain and Flooding


                                         Public Assistance       Individual & Family        Hazard Mitigation         Totals
Award Amounts
 Federal Share
 Local MatcNState Share
Total Award Amount


Source of Funds
 Federal Share                                      $5,499,007              $195,746                   $871,336            $6,566,089
 Local MatcNState Share                              1,833.002                65,249                     290,445               2,188,696
Total Source of Funds                               57,332,009              $260,995                  $1,161,781           $8,754,785


Application of Funds
 Federal Share
 Local MatchlState Share                             1,757,835                52,821                     275, 162              2,085,818
Total Application of Funds                          $7,256,842              $248,567                  $1,146,498           $8,651,907


Balance of Federal Funds on Hand                          5 0                       $0                      $ 0                      $0
                 FEMA                                                                 Emergency Management Agency
                                                                                                  State of Vermont

                                                                                                                Attachment A 4


                                                  Schedule of Source and Application of Funds
                                                   Vermont Emergency Management Agency
                                                       Disaster Assistance Grant Program
                                                           As of September 30,2002


                 Disaster Number 1204   - Declaration Date: January 15,1998 -Severe   Ice Storms, Rain, High Winds and Flooding




                                            Public Assistance         lndivldual & Family         Hazard Mitigation          Totals
Award Amounts
 Federal Share                                         $4,474,062                $220,000                    $91 1,211            $5,605.273
 Local MatcNState Share                                 1,491,354                  73,333                      303,737                1,868,424
Total Award Amount                                     $5,965,416                $293,333                   $1,214,948            $7,473,697


Source of Funds
 Federal Share                                         $4,474,062                $204,443     '              $865,233             $5,543,738
 Local Matchistate Share                                1,491,354                  68,148                     288,411                 1,847,913
Total Source of Funds                                  $5,965,416                $272,591                   $1,153,644            $7,391,651


Application of Funds
 Federal Share                                         $4,474,062                $204,443                    $865,233             $5,543.738
 Local MatchIState Share                                1,425.121                  53,335                      273,667                1,752,123
Total Application of Funds                             $5,899,1 83               $257,778                   $1,138,900            $7,295,861


Balance of Federal Funds on Hand                                $ 0                   $ 0                         $ 0                      $ 0
                 FEMA                                                               Emergency Management Agency
                                                                                                State of Vermont

                                                                                                        Attachment A-5


                                                Schedule of Source and Application of Funds
                                                 Vermont Emergency Management Agency
                                                     Disaster Assistance Grant Program
                                                         As of September 30,2002


                             Disaster Number 1228 -Declaration Date: June 30,1998 -Severe Storms and Flooding




                                          Public Assistance         Individual & Family   Hazard Mitigation         Totals
Award Amounts
 Federal Share
 Local MatcMState Share
Total Award Amount


Source of Funds
 Federal Share
 Local MatchlState Share
Total Source of Funds


Application of Funds
 Federal Share
 Local MatchlStateShare
Total Application of Funds                          $11,722,482                $101,033             $2,067,554           $13,891,069


Balance of Federal Funds on Hand                              $ 0                    $0               $18,176                $18,176
                 FEMA                                                           Emergency Management Agency
                                                                                            State of Vermont

                                                                                                            Attachment A-6


                                              Schedule of Source and Application of Funds
                                                Vermont Emergency Management Agency
                                                   Disaster Assistance Grant Program
                                                         As of September 30,2002


                                     -
                  Disaster Number 1307 Declaration Date: November 10,1999 -Severe Storm Damage and Power Outages




                                         Public Assistance       Individual & Family    Hazard Mitigation               Totals
Award Amounts
 Federal Share                                     $1,010,653                      $0                  $123,252               $1,133,905
 Local MatcNState Share                               336,884                       0                    41 .084                 377,968
Total Award Amount                                 $1,347,537                      $0                  $164,336               $1.51 1,873


Source of Funds
 Federal Share                                     $1,010,653                      $0                      $19,882            $1,030,535
 Local Matchistate Share                              336.884                       0                        6,627              343,511
Total Source of Funds                              $1,347.537                      $0                      $26,509            $1,374,046

Application of Funds
 Federal Share                                     $1,010,653                      $0                      $19,639            $1,030,292
 Local MatchIState Share                              318.057                       0                       19,690              337,747
Total Application of Funds                         $1,328,710                      $0                      $39,329            $1,366,039


Balance of Federal Funds on Hand




                                                    Soza & Company, Ltd.                                                 16

                                                     -       -   -   -                  - -
                                                                                              --
                                                                                              -    -   -
                                                                                                               -       -          -
                                                                                                                                            -
                                                                                                                                            -
                 FEMG                                                               Emergency Management Agency
                                                                                                State of Vermont
                                                                                                          Attachment A-7


                                                Schedule of Source and Application of Funds
                                                 Vermont Emergency Management Agency
                                                     Disaster Assistance Grant Program
                                                         As of September 30,2002


                             Disaster Number 1336 -Declaration Date: July 27,2000   - Severe Storms and Flooding


                                          Public Assistance       Individual & Family       Hazard Mitigation         Totals
Award Amounts
 Federal Share                                       $2,509,110                      $0                $335,466            $2,844,576
 Local MatchtState Share                                836.370                        0                111,822                948,192
Total Award Amount                                   $3,345,480                      $0                $447,288            $3,792,768


Source of Funds
 Federal Share                                       $2,243,065                       $0                $76,163            $2,319,228
 Local MatchlState Share                                747,688                        0                 25,388                773,076
Total Source of Funds                                $2,990,753                       $0               $101,551            $3,092,304


Application of Funds
 Federal Share                                       $2,243,065                       $0                $76,163            $2,319,228
 Local Matchistate Share                                712,976                        0                  46,172               759,148
Total Application of Funds                           $2,956,04$                       $0               $122.335            $3,078.376


Balance of Federal Funds on Hand
                 FEMA                                                            Emergency Management Agency
                                                                                             State of Vermont
                                                                                                        Attachment A-8


                                              Schedule of Source and Application of Funds
                                                Vermont Emergency Management Agency
                                                   Disaster Assistance Grant Program
                                                       As of September 30,2002


                             Disaster Number 1428 -Declaration Date: July 12,2002   - Flood and Storm Damage


                                       Public Assistance        lndlvidual 8 Family     Hazard Mitigation          Totals
Award Amounts
 Federal Share                                    $1,222,728               $187,500                         $0              $1,410,228
 Local MatchlState Share                             407,576                 62.500                          0                470.076
Total Award Amount                                51,630,304               $250,000                         $0              $1,880,304


Source of Funds
 Federal Share
 Local Matchistate Share                                    0                       0                        0                       0
Total Source of Funds                                      $0                    $0                         $0                      $0


Application of Funds
 Federal Share                                      $973.140                $84,553                         $0              $1,057,693
 Local MatchlState Share                             319.705                 22,816                          0                 342.521


Total Application of Funds


Balance of Federal Funds on Hand                                                        $-
                                                                    U.S. Department o f Homeland Security
                                                                    Region 1
                                                                    99 High St, 6th Floor
                                                                    Boston, M A 02110-2320




Mr. Gary Berard
Department of Homeland Security
ORce of Inspector General
Atlanta Field Oflice-Audit Division
3003 Chamblee Tucker Road
Atlanta, GA 30341

Dear M. Berard:

Attached please find the State of Vermont response to the draft audit findings to the OIG
audit of the state of Vermont Disaster Grant program, Region I has reviewed this
response and concurs with its recommendations. The Region provides no additional
comments at this time. We request that you consider these recommendations when you
compile the final report,

If you have any questions or need assistance, please feel free to contact me or Chris
Lynch at (617) 832-4795.




                                             Kenneth L.Horak
                                             Acting Regional Director

Enclosure

Cc:    Acting Deputy RD
       Division Directors
                                               STATE OF VERMONT
                                          DEPARTMENT OF PUBLIC SAFETY

                                                                                                            TELEPHONE
    103 South Matp S t c t                                                                                1-800-347-0488
  Waterbury, VT 05671-2101                                                                                (802) 244-8721
httpJhhvw.dp%state.~.us/vernf                                                                                  -
                                                                                                        TDD (802) 244-3371
                                                                                                        PAX (002)241-5556


                                       VERMOHT EMERGENCY MANAGEMENT


               June 3,2005

              Mr. Kenneth Horak
              Acting Director
            DHSEederal Emergency Management Agency
. .. . .- - Region 1. . - .       .-  ,.- .. .                     .   .   --    .--.   ,..      --   . .
            99 High Street, 6". Floor
            BOS~Q~,"'MA  02109

               Dear Mr. Horak;

               Vermont Emergency Management and officials with the Department of Children and
               Families reviewed the audit of the Individual and Family Grant Program conducted by
               the firm of Soza and ~ o r n p n yAs
                                                 ; indicated at the exit inteni~w,
                                                                      ... .     . ,Vermont
                                                                                    . .    officials find
                                                   .,.'  . . .
               that the report is accuriite,~ ,                                      .  .               1.
               We miist caution that the findings, if read literally, do not reflect Vermont's true effons bt
                                                                                                               I
               administering the LFG program. he explanations included in the report for not meeting1
               mandated deadlids to complete grant'awardactivity, pages 8 and 9 of the Soza Report,
               should be taken into account. We also note that there were only two findings requiring
               corrective action.

                Vermont Emergency Management and the Division of Children and Families,
               administrator of the Individual Assistant Program for Vermont, did review these findings
               and submit the folIowing plan of correction for both.

                    Untimely completion of 1 . G Grant award activity andfinal reports:

               Vermont will establish procedures to ensure that all grant award activity, including
               eligibility determinations, disbursements, appeals and final reports meet federal Stafford
               act deadlines.

               LA officials will also work with administrative personnel to ensure that ail administrative
                                            are
               activities.and final reports ..-.:, s!b~nirted
                                                    ..        with the established 90 days period.following
                                                                                           .   .. .
               compl&tionof all        -awrird activity.

                                    t work with PE* . . Region 1 1A staff to msurc timely training of
               Firidly, ~ k r m o n'will                                                                      e .


               State'staff assigned
                                 ~,
                                     to.the IA Program.'                   . .                  . .
                                                       .    .

      I believe this letter closes out the IA final audit.r&h   from Soza and Company
      conducted for the Individual Assistance Program.

na*             be of W h e r assistance, please feel free to contact us.
